<html>
<title> - PROTECTING OUR NATION'S CHILDREN FROM SEXUAL PREDATORS AND VIOLENT CRIMINALS: WHAT NEEDS TO BE DONE?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



  PROTECTING OUR NATION'S CHILDREN FROM SEXUAL PREDATORS AND VIOLENT 
                   CRIMINALS: WHAT NEEDS TO BE DONE?

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2005

                               __________

                           Serial No. 109-31

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-658                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                      Jay Apperson, Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                  Michael Volkov, Deputy Chief Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 9, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Mark Green, a Representative in Congress from the 
  State of Wisconsin [presiding] and Member of the Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Ms. Tracy Henke, Deputy Associate Attorney General, U.S. 
  Department of Justice
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7
Mr. Ernie Allen, President & CEO, National Center for Missing and 
  Exploited Children
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Ms. Amie Zyla, Student, Waukesha, Wisconsin
  Oral Testimony.................................................    19
  Prepared Statement.............................................    20
Mr. Fred Berlin, M.D., Associate Professor, Johns Hopkins 
  University
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    35
Letters submitted by the Honorable Mark Green, a Representative 
  in Congress from the State of Wisconsin and Member of the 
  Subcommittee on Crime, Terrorism, and Homeland Security on 
  behalf of Allsion Gullick, Marc Klaas, and Eric and Michelle 
  Wilkinson......................................................    36

 
  PROTECTING OUR NATION'S CHILDREN FROM SEXUAL PREDATORS AND VIOLENT 
                   CRIMINALS: WHAT NEEDS TO BE DONE?

                              ----------                              


                         THURSDAY, JUNE 9, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:05 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Mark 
Green presiding.
    Mr. Green. [Presiding.] Good afternoon. I want to welcome 
everyone to the third in a series of important hearings held by 
this Subcommittee addressing the problem of sexual predators 
and violent criminals who attack our Nation's children.
    The first two hearings this week have shown once again the 
devastating tragedy of crimes against children. We've heard 
testimony--and I expect to hear more at this hearing--that 
paints a grim picture. The threat to our children is real, and 
it is growing. And it is time for us to act.
    No longer can we simply urge and rely on others to do what 
needs to be done. Congress must take steps to provide greater 
safety for our most vulnerable, our children. When considering 
what needs to be done, we must be mindful that Congress has to 
provide needed resources to the States. We must ensure that 
Federal actors have the ability to provide necessary 
protections and assistance to the States.
    Some might say that we need to treat sex offenders and to 
rehabilitate them; that we must address the problem by throwing 
money at sex offenders to break their silence and perverse 
behavior, to stop them from attacking again and again, from 
molesting again and again.
    My view is quite the opposite. One victim, one child 
harmed, one child raped, one child molested, is one crime too 
many. I'm not willing to cross my fingers and hope the problem 
does not occur again and again. To me, a sex offender who 
commits one of these heinous offenses has forfeited the right 
to live with the freedoms enjoyed by law-abiding citizens. The 
sex offender has forfeited the right to move without compliance 
with registration requirements; whether it be for a job, for 
school, or simply to live.
    If the sex offender violates the terms of supervision, the 
terms of probation and parole, or registration requirements, 
the sex offender must be swiftly and effectively locked up, so 
that he cannot touch one more innocent child.
    The fact is that right now in our country there are at 
least 100,000 sex offenders roaming our communities--
communities where law-abiding citizens are raising their 
families without any knowledge of the risk that these offenders 
pose to their children.
    So as I see the problem, Congress must act now, must act 
quickly, and must act with a comprehensive plan aimed at 
accomplishing the following:
    First, redoubling our efforts to register each and every 
sex offender in this country;
    Second, adopting new and stiff criminal penalties against 
sex offenders who fail to comply with registry laws, probation 
requirements, or other laws;
    Third, providing States with the infrastructure necessary 
to use new technology, such as the Internet, tracking devices, 
and other mechanisms, to protect our communities from these 
predators;
    Fourth, giving States resources needed to apprehend sex 
offenders or those that cross State lines to work, live, or go 
to school;
    Fifth, ensuring that State registries cover all classes of 
sexual offenders who pose a serious risk of harm to children, 
including juvenile predators who are not covered by the 
existing Jacob Wetterling Law;
    Sixth, promoting proactive notification systems for States 
to use to inform law enforcement, schools, public housing 
agencies, and others when sex offenders move into their 
communities to live, work, or attend school;
    Seventh, ensuring that the Justice Department and other 
Federal agencies support the States and provide technical 
assistance for national efforts to assist the States and the 
public;
    Eighth, providing law enforcement with the tools, DNA 
collection, and testing resources needed to identify and 
prosecute sex offenders who have escaped prosecution but now 
may be caught with powerful forensic evidence;
    And ninth, provide new civil procedures to incapacitate 
Federal sex offenders who suffer from mental abnormalities and 
pose a serious risk of harm to our communities.
    I, along with many others, will aggressively seek to enact 
legislation following such broad principles. We do so because 
we remember the suffering caused by crimes committed against 
Jessica Lunsford, Jetseta Gage, Sarah Lunde, and from my home 
State of Wisconsin, Amie Zyla, who courageously agreed to 
testify here today.
    I'm anxious to hear from our distinguished panel of 
witnesses. And I now yield time to the Ranking Minority Member 
of this Subcommittee, the gentleman from Virginia, Mr. Bobby 
Scott.
    Mr. Scott. Thank you, Mr. Chairman. I thank you for holding 
this hearing on what we can do to protect children from sexual 
predators and other violent criminals. It's good actually to 
hold the hearing. Usually, we pass the bills and then hold the 
hearing. In this case, we're actually considering the bills. At 
such a time, we can actually consider the research to make sure 
we're doing the right thing.
    Child deaths as a result of sexual abuse or other violence 
is so tragic as to shock the conscience, and our reaction will 
be to strike back with all the punitive weight of government. 
As policymakers, it's also incumbent upon us not to simply 
strike back after the events have happened, but to see what we 
can do to reduce the incidence to begin with.
    We know that the vast majority of abusers are either 
relatives, friends or individuals known to the child and 
family--90 to 95 percent, according to ``Be a Child's Hero 
Network.'' Most of the cases of abuse are never reported to 
authorities or ever dealt with in an official manner.
    Furthermore, we know that some child offenders are 
predatory, and repeat their crimes. The vast majority do not, 
after conviction, create other similar crimes. Studies by the 
Department of Justice indicate that less than 5 percent after 
conviction are found guilty of other sexual crimes against 
children.
    So any repeat offense against children is horrible, but we 
have to consider what we can do in the most cost-effective way, 
most cost-effective strategies, to reduce the chance that it 
might happen again.
    Mr. Chairman, most of the bills we're going to consider are 
the public notification bills. I want to make it clear that 
having police and supervision authorities aware of all location 
and identification information about child offenders is not 
subject to debate. They need to know this information and have 
this information available.
    The question before us is whether or not this information 
ought to be available on the Internet, and whether that's 
productive or counterproductive in reducing the incidence of 
child sexual abuse.
    We have limited amounts of money, and we ought to make sure 
that that money is used as strategically as possible to reduce 
the incidence of child sexual abuse. Some of these bills cost a 
lot of money to implement, and we have to consider whether or 
not it could have been used more effectively other ways to 
reduce child sexual abuse.
    So Mr. Chairman, I look forward to the testimony of our 
witnesses on what we can do to actually address the problem. 
And I thank you for convening the hearing.
    Mr. Green. I thank the Ranking Member for his opening 
statement.
    Witnesses, it is the practice of the Subcommittee to swear 
in all witnesses appearing before it. If you would, please 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Green. Let the record show that each of the witnesses 
answered in the affirmative.
    Please be seated.
    We have four distinguished witnesses with us today. Our 
first witness is Ms. Tracy Henke, Acting Assistant Attorney 
General and Deputy Associate Attorney General for the Office of 
Justice Programs for the Department of Justice. In this role, 
Ms. Henke is responsible for the overall management and 
oversight of the Office of Justice Programs, guides the 
development of policy and priorities, and promotes coordination 
among OJP bureaus and support offices.
    Additionally, she serves as the national Amber Alert 
coordinator, responsible for encouraging coordination of 
regional, State, and local efforts to establish Amber Alert 
plans to aid in recovering abducted children. Ms. Henke is a 
graduate of the University of Missouri, Columbia.
    Our second witness is well known to most of us here, Mr. 
Ernie Allen, President and CEO of the National Center for 
Missing and Exploited Children, which has helped to recover 
more than 92,000 children, at a 96 percent recovery rate. Mr. 
Allen has spearheaded efforts to launch a new international 
center and build a global network to track missing children in 
16 nations.
    Previously, he held several positions in public service, 
including chief administrative officer of Jefferson County, 
director of public health and safety, and director of the 
Louisville-Jefferson County Crime Commission. He is a graduate 
of the University of Louisville.
    Our third witness is Amie Zyla. Amie is a junior at Sussex 
Hamilton High School in Waukesha, Wisconsin. She hopes to one 
day become a hairdresser and own her own salon. She is here 
today to recount her personal story of abuse at the hand of a 
convicted sex offender. We look forward to Amie's testimony of 
this horrific experience.
    Our final witness today is Dr. Fred Berlin, Associate 
Professor in the Department of Psychiatry at the Johns Hopkins 
University School of Medicine. Dr. Berlin is the founder of the 
National Institute for the Study, Prevention, and Treatment of 
Sexual Trauma, where he currently serves as the director.
    He is the author of numerous publications, including ``The 
Impact of Surgical Castration on Sexual Recidivism,'' ``Risk 
Among Civilly Committed Sexual Offenders,'' and ``Sex Offender 
Treatment and Legislation.'' Dr. Berlin was named Distinguished 
Fellow in 2003 by the American Psychiatric Association. He 
earned a bachelor's degree from the University of Pittsburgh, 
and his M.D. and PhD. from Dalhousie University in Halifax, 
Canada.
    I welcome all the witnesses. And now, Ms. Henke, welcome. 
We look forward to your testimony.

 TESTIMONY OF TRACY HENKE, DEPUTY ASSOCIATE ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Ms. Henke. Thank you, Mr. Chairman, Mr. Scott. I am Tracy 
Henke, and I'm the Deputy Associate Attorney General for the 
United States Department of Justice, as well as the current 
Acting Assistant Attorney General for the Office of Justice 
Programs.
    I want to thank you all for having this hearing. I'm 
pleased to be here on behalf of the Department of Justice to 
discuss the steps we are taking on this issue. Specifically, I 
want to explain the implementation of the new National Sex 
Offender Public Registry.
    As you might know, the Attorney General directed the Office 
of Justice Programs to expedite the design and delivery of a 
National Public Registry website, which he announced on May 
20th. The public registry will use Internet technologies and 
the Department of Justice's Global Justice Extensible Markup 
Language--or what we like to call XML--to find and display 
information from a State's existing online public sex offender 
registry. The search will deliver results based on a name, zip 
code, geographical area, or other query.
    While citizens can already search existing public State 
offender registries, that search must be conducted on a State 
by State basis; a cumbersome and time-consuming process. 
Limited for-profit sites also offer information from various 
States by data mining their public registries, often without 
the States' knowledge. However, no government system currently 
exists to link these public registries.
    In contrast, the National Public Registry creates a single 
focal point for citizens to search public sex offender 
information nationwide, providing timely and accurate 
information to the public. It is a partnership effort between 
the Department of Justice and the States to offer secure, 
reliable, and free-of-charge public sex offender information to 
citizens nationwide.
    The National Sex Offender Public Registry will not collect 
or retain control over any State data, and there will be no 
cost to the State or territory to link to the national search 
site. States and territories need not change or alter the 
design or functionality of their existing sex offender 
registries in order to participate.
    It is important to note that by allowing States to maintain 
control over their own data they can remain consistent with 
their own State laws regarding release of offender information. 
In addition, because data is maintained under State control, it 
can be more closely monitored and validated between the States 
and the local law enforcement agencies providing the 
information.
    I stress that the public registry can be implemented 
quickly. The Attorney General has challenged us to have at 
least 20 States participating and a site available for public 
searches in just 60 days from May 20th, with additional States 
linked in the following months.
    The Office of Justice Programs Bureau of Justice Assistance 
has already developed a working prototype with Maryland, New 
Jersey, Ohio, and Pennsylvania. Since the Attorney General 
announced this initiative nearly 3 weeks ago, States have been 
calling to find out how they can be in the first 20 
participating.
    The key advantages of this registry are that it promotes 
public safety by using already existing public State and 
territory sex offender data. It is cost-free to both the States 
and the citizens. And it requires no special certification or 
training, and provides an additional resource for effective sex 
offender management.
    In addition to the implementation of the public registry, 
the Bureau of Justice Statistics provides NCHIP funds to States 
that can be used to improve their own sex offender registries. 
Since 1998, States have used over $37 million in Federal 
funding for this purpose.
    The Bureau of Justice Assistance manages the Comprehensive 
Approaches to Sex Offender Management Program, which provides 
funding to help jurisdictions implement sound approaches to 
managing sex offenders in the community, while keeping citizens 
safe. In fiscal year 2004, jurisdictions in 12 States received 
a total of more than $2.8 million for these projects. An 
additional $2.3 million should be awarded this fiscal year.
    While these OJP programs are useful, and the National 
Public Sex Offender Registry is an immediate contribution in 
helping protect our Nation's children, we recognize that 
citizens need more than just a search site to help protect 
their children from sex offenders. We are committed to a 
comprehensive effort that includes providing a wide range of 
training and technical assistance and technology to help States 
and communities address this complex crime problem.
    We will also continue to take an active role in the Federal 
Agency Task Force on Missing and Exploited Children, which 
promotes a coordinated Federal response to these issues.
    We pledge to work with the Congress to address the issue of 
how best to protect the public from dangerous sex offenders, 
including through the public availability of sex offender 
registration information.
    As the Attorney General has said in announcing the 
registry, ``We must fight violent crimes, especially crimes 
that steal the future from our children. Names like Jessica 
Lunsford and Megan Kanka highlight the importance of this new 
technology. Their smiles, wiped away forever by sex offenders, 
are a constant reminder that we must keep parents and 
communities informed and engaged.''
    I'm pleased to answer any questions you might have.
    [The prepared statement of Ms. Henke follows:]

                  Prepared Statement of Tracy A. Henke

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Green. Thank you; appreciate the testimony.
    Mr. Allen.

TESTIMONY OF ERNIE ALLEN, PRESIDENT & CEO, NATIONAL CENTER FOR 
                 MISSING AND EXPLOITED CHILDREN

    Mr. Allen. Mr. Chairman, Members of the Committee, we are 
honored to be included in the hearing today. And thank you for 
your long-time leadership on this issue.
    Sex offenders pose an enormous challenge. Most of their 
victims are children. Most of those children are not members of 
their own family. Most of these offenders are not in prison. 
And those that are, tend to serve limited sentences.
    While most sex offenders are in the community, historically 
their presence has largely been unknown to the citizens of that 
community. Sex offenders represent the highest risk of re-
offense. And while community supervision and oversight is 
essential, the system for providing such supervision is 
overwhelmed.
    There's strong empirical data that address this issue. 
According to the Department of Justice, 67 percent of reported 
sexual assault victims in this country are children; one out of 
three under the age of 12.
    In 1997, the Congress mandated the National Center to 
create a CyberTipline, a national resource for reporting child 
sexual exploitation. Since 1998, we've handled more than 
325,000 reports, resulting in hundreds of arrests and 
prosecutions; 112,000 reports last year alone.
    In 1994, Congress passed the ``Jacob Wetterling Crimes 
Against Children and Sexually Violent Predators Act.'' As a 
result, today all 50 States and the District of Columbia have 
sex offender registries. This was groundbreaking child 
protection legislation. However, 11 years later, there are 
problems in the State programs that we believe thwart the 
original congressional intent.
    Mr. Chairman, you mentioned it in your opening remarks. 
Today, there are 550,000 registered sex offenders in the United 
States, but at least 100,000 of those offenders are non-
compliant--literally, missing.
    A great deal of discretion is left to the States--
appropriately--in how they implement their registration 
programs. But the result is that there is a significant lack of 
consistency and uniformity from State to State. There are 
loopholes that permit sex offenders to cross State lines and 
remain undetected. We know that registered sex offenders often 
forum shop in order to achieve anonymity.
    Let me just cite a few examples of the discrepancies we 
believe exist. In eight States, the burden to notify 
authorities in the new State to which the offender is moving is 
solely attached to that offender. So only he has the obligation 
to tell the State to which he's moving. In two States, neither 
the offender nor the State authorities are required to notify 
authorities in the new State. In another three States, this 
issue is not even addressed in the law.
    There are only five States in which probation and parole 
must be revoked when an offender fails to comply with 
registration responsibilities. There are only eight States in 
which an offender's probation or parole may be revoked for 
failure to comply with registration.
    In 31 States, the penalty for failure to register is just a 
misdemeanor. In three States, offenders have more than 10 days 
to notify authorities when they change their address.
    We suspect that those who represent the greatest threat to 
children are also the least likely to be compliant. There are 
at least 100,000 non-compliant offenders; people like the 
killer of Jessica Lunsford, who was not where he was supposed 
to be and whose presence was unknown to police or Jessica's 
family, even though he lived 150 yards down the street from her 
and had worked construction at her elementary school.
    We need to do a better job of identifying those who 
represent the greatest risk, and those whose criminal histories 
should forfeit any right to be on the streets and close to 
innocent children. But at a minimum, we must know where all of 
these convicted sex offenders are, and what they're doing.
    Yet the challenge to do that is daunting. We recently 
surveyed the State registration agencies, and heard almost 
universally about a lack of funding, a lack of personnel, 
outdated technology, lack of centralized communication systems. 
In many instances, registration verification is by mail, and 
not in person.
    Tracking the location of these offenders is only part of 
the challenge. Equally important is community notification. In 
1996, Congress amended the Jacob Wetterling Act to include a 
Federal Megan's Law, mandating State community notification 
programs. States are given broad discretion, but in practice, 
that notification is either passive, requiring the public to 
initiate contact to get information, or active, by which law 
enforcement officers initiate contact themselves through 
community meetings or posting fliers or visits to residences 
within a radius of the offender's address. Today, in 17 States 
that notification is passive only. Thus, it's up to the public 
to continually seek out this information on their own 
initiative.
    We commend the Attorney General for his recent initiative 
in creating a nationwide sex offender database. Public access 
to this information is vital to preventing sexual crimes 
against children.
    Mr. Chairman, in conclusion, the Wetterling Act and Megan's 
Law represented a giant step forward a decade ago. We believe 
that Congress needs to preserve that foundation. But America 
has changed. Today, there are more offenders; there are new 
technologies; and there are more, and younger, victims.
    We understand that resources are scarce and that there are 
many competing demands. However, it's hard to imagine a greater 
or more pressing priority. Thank you.
    [The prepared statement of Mr. Allen follows:]

                   Prepared Statement of Ernie Allen

    Mr. Chairman and distinguished members of the Subcommittee, I 
welcome this opportunity to appear before you to discuss crimes against 
children. Chairman Coble, you are a tireless advocate for child 
protection and I commend you and your colleagues for your leadership 
and initiative. The National Center for Missing & Exploited Children 
(``NCMEC'') joins you in your concern for the safety of the most 
vulnerable members of our society and thanks you for bringing attention 
to this serious problem facing America's communities.
    Let me first provide you with some background information about the 
National Center for Missing & Exploited Children (NCMEC). NCMEC is a 
not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by Congress 
and in part by the private sector. Our federal funding supports 
specific operational functions mandated by Congress, including a 
national 24-hour toll-free hotline; a distribution system for missing-
child photos; a system of case management and technical assistance to 
law enforcement and families; training programs for federal, state and 
local law enforcement; and our programs designed to help stop the 
sexual exploitation of children.
    These programs include the CyberTipline, the ``9-1-1 for the 
Internet,'' which serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children on the 
Internet. The Internet has become a primary tool to victimize children 
today, due to its widespread use and the relative anonymity that it 
offers child predators. Our CyberTipline is operated in partnership 
with the Federal Bureau of Investigation (``FBI''), the Department of 
Homeland Security's Bureau of Immigration and Customs Enforcement 
(``ICE''), the U.S. Postal Inspection Service, the U.S. Secret Service, 
the U.S. Department of Justice's Child Exploitation and Obscenity 
Section and the Internet Crimes Against Children Task Forces, as well 
as state and local law enforcement. Leads are received in seven 
categories of crimes:

        <bullet>  possession, manufacture and distribution of child 
        pornography;

        <bullet>  online enticement of children for sexual acts;

        <bullet>  child prostitution;

        <bullet>  child-sex tourism;

        <bullet>  child sexual molestation (not in the family);

        <bullet>  unsolicited obscene material sent to a child; and

        <bullet>  misleading domain names.

    This last category was added as a result of enactment of the 
PROTECT Act in 2003.
    These leads are reviewed by NCMEC analysts, who visit the reported 
sites, examine and evaluate the content, use search tools to try to 
identify perpetrators, and provide all lead information to the 
appropriate law enforcement agency. The FBI, ICE and Postal Inspection 
Service have ``real time'' access to the leads, and all three agencies 
assign agents and analysts to work directly out of NCMEC and review the 
reports. The results: in the 7 years since the CyberTipline began 
operation, NCMEC has received and processed more than 325,000 leads, 
resulting in hundreds of arrests and successful prosecutions.
    Another one of our programs to prevent child exploitation is our 
partnership with the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement (``ICE''). This initiative, called 
``Operation Predator,'' is the hallmark of the Department's efforts to 
protect children from pornographers, child prostitution rings, Internet 
predators, alien smugglers, human traffickers and other criminals. 
NCMEC's alliance with ICE is designed to facilitate the exchange of 
information on missing children, as well as investigative and 
intelligence leads. An ICE Senior Special Agent has been assigned to 
NCMEC to coordinate leads developed by NCMEC that require ICE law 
enforcement capabilities. This alliance has proved enormously 
successful: more than 5,000 individuals have been arrested nationwide. 
More than 85% of these arrests are of sex offenders who are foreign 
nationals living in this country and who have been deported. In 
addition, more than 1,000 arrests based on ICE leads have been made in 
Australia, Canada, Denmark, Finland, Japan, the Netherlands, New 
Zealand, Norway, Sweden, Switzerland and the United Kingdom.
    However, despite our progress the victimization of children 
continues and there is evidence that it is increasing. The number of 
reports of child pornography to the CyberTipline increased 39 percent 
in 2004. Our records show a significant and steady increase in these 
reports over the years. This upward trend is very disturbing and shows 
the seriousness of this issue. But this is not the only evidence.
    Recently, we consulted with some of the leading scholars and 
researchers in the field. There has been much attention to the question 
of how many children are actual victims of sexual offenders, including 
retrospective studies of adults. The researchers with whom we spoke 
agreed that on the most conservative basis there was general agreement 
that at least 1 in 5 girls and 1 in 10 boys will be sexually victimized 
in some way before they reach adulthood, and just 1 in 3 will tell 
anybody about it. Clearly, those numbers represent a broad spectrum of 
victimizations from very minor to very severe. Nonetheless, the numbers 
are powerful testimony to the fact that children are at risk and that 
we must do more.
    There are strong empirical data as well. According to the U.S. 
Department of Justice, 67 percent of reported sexual assault victims 
are children \1\--more than two-thirds. And these are only the ones 
that law enforcement knows about. Most crimes against children are not 
reported to the police.\2\ This means that there are many, many more 
victims of these heinous crimes than the statistics show.
---------------------------------------------------------------------------
    \1\ Snyder, Howard N., Sexual Assault of Young Children as Reported 
to Law Enforcement: Victim, Incident, and Offender Characteristics, 
Bureau of Justice Statistics, Office of Justice Programs, U.S. 
Department of Justice, July 2000, page 2.
    \2\ 1999 National Report Series: Children as Victims, Office of 
Juvenile Justice and Delinquency Prevention, Office of Justice 
Programs, U.S. Department of Justice, May 2000, Page 7.
---------------------------------------------------------------------------
    In addition, these children are being victimized at increasingly 
younger ages. One out of every three victims of sexual assault is under 
age 12.\3\ Reports to the CyberTipline include images of brutal sexual 
assaults of toddlers and infants. These are images that no one here 
could previously even imagine. But they have become all-too-common in 
the new world of child pornography and child sexual exploitation. 
Today, children of all ages are potential victims.
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    In recent months, millions of Americans have followed with horror 
the devastating stories of Jessica Lundsford, Sarah Lunde, Jetseta Gage 
and others. These tragic cases have generated anger and indignation 
nationwide, and epitomize what has been an increasing area of concern 
for NCMEC in recent years: the challenge of tracking, registering and 
managing the nation's convicted sex offenders effectively. Sex 
offenders pose an enormous challenge for policy makers. They evoke 
unparalleled fear among citizens. Their offenses are associated with 
the greatest risk of psychological harm. Most of their victims are 
children and youth. As policy makers address the issue of sex 
offenders, they are confronted with some basic realities:

        1.  Most sex offenders are not in prison, and those that are 
        tend to serve limited sentences;

        2.  While most sex offenders are in the community, historically 
        their presence was largely unknown to citizens;

        3.  Sex offenders represent the highest risk of reoffense; and

        4.  While community supervision and oversight is widely 
        recognized as essential, the system for providing such 
        supervision is overwhelmed.

    Currently, there are nearly 550,000 registered sex offenders in the 
U.S.\4\ At least 100,000 of these are non-compliant, in most cases 
literally ``missing.'' They moved and failed to register their new 
address with law enforcement, or they provided the wrong address or 
some similar variation. The number of offenders required to register is 
only going to increase as new cases work their way through the criminal 
justice system. This problem is not going to go away. These offenders 
will be in our communities. The question is: what more can we do?
---------------------------------------------------------------------------
    \4\ In May 2005 NCMEC contacted the registering agencies for all 50 
states and the District of Columbia. The total number of sex offenders 
reported for all jurisdictions is 549,038.
---------------------------------------------------------------------------
    We commend Attorney General Alberto Gonzales for his bold and 
decisive new initiative in creating a nationwide sex offender database. 
Public access to this information is vital to preventing sexual crimes 
against children. We are grateful to the many Members of the United 
States Congress for their leadership on this issue as well. The 
dedication of two branches of government to this problem gives us 
confidence that real progress will be made toward making our 
communities safer.
    In 1994 Congress passed the Jacob Wetterling Crimes Against 
Children and Sexually Violent Predators Act. As a result, all 50 states 
and the District of Columbia have sex offender registries. This was 
groundbreaking child protection legislation. However, 11 years later 
there are many problems in the state programs that thwart the original 
Congressional intent in passing the Act. The federal scheme leaves a 
great deal of discretion to the states in how they implement their 
individual registration programs. As a result, there is a significant 
lack of consistency and uniformity from state to state. There are also 
serious discrepancies among the states, creating loopholes in the laws 
that permit sex offenders to cross state lines and remain undetected. 
We know that registered sex offenders often ``forum-shop'' in order to 
achieve anonymity. Some examples of the discrepancies in the state 
statutes are the following:

        <bullet>  in 8 states the offender alone has the burden to 
        notify the authorities in a new state when moving into that 
        state

        <bullet>  in 2 states neither the offender nor the state 
        authorities are required to notify the authorities in a new 
        state--in another 3 states this issue is not even addressed

        <bullet>  in only 5 states probation or parole must be revoked 
        when an offender fails to comply with registration duties

        <bullet>  in only 8 states an offender's probation or parole 
        may be revoked for failure to comply with registration duties

        <bullet>  in 31 states the penalty for failure to comply with 
        registration duties is only a misdemeanor

        <bullet>  in 3 states offenders have more than 10 days to 
        notify the authorities when they change their address

    The challenges are basic. We must assume that those who represent 
the greatest threat are those least likely to be compliant. They are 
the most likely offenders to attempt to disappear. There are at least 
100,000+ non-compliant offenders, people like the killer of Jessica 
Lundsford, who was not where he was supposed to be.
    We need to do a better job as a nation of identifying those who 
represent the greatest risk, those whose criminal history forfeits any 
right to be on the streets and close to innocent children. But at a 
minimum, we must know where all of the convicted sex offenders are and 
what they are doing.
    Yet, the challenge of doing that is daunting and is compounded by 
the increasing burden on law enforcement to track offenders throughout 
their period of registration, in many cases for the offender's 
lifetime. A recent survey by NCMEC of state registering agencies 
revealed the following problems:

        <bullet>  lack of sufficient funding

        <bullet>  lack of personnel

        <bullet>  lack of law enforcement personnel dedicated solely to 
        sex offender issues

        <bullet>  outdated computer hardware and software

        <bullet>  lack of centralized communication systems between 
        jurisdictions for tracking offenders

        <bullet>  registrants' verification is by mail and not in 
        person

        <bullet>  lack of funding to conduct community notification of 
        sex offenders

        <bullet>  lack of technology to easily identify fake addresses

        <bullet>  lack of clarity regarding law enforcement authority 
        across jurisdictions, including tribal lands

        <bullet>  lack of legal requirement to keep registry 
        information current

        <bullet>  lack of a national registry of sex offenders

        <bullet>  inability to track homeless registrants

        <bullet>  lack of notice by jails of offenders' release

    Tracking the location of these offenders is only part of the 
challenge. Equally important is the issue of notifying the public about 
the location of these offenders. According to the National Institute of 
Justice, child abusers have been known to reoffend as late as 20 years 
following release into the community.\5\ In 1996 Congress amended the 
Jacob Wetterling Act to include a federal Megan's Law, mandating state 
community notification programs. This was named after 7-year-old Megan 
Kanka of New Jersey, who was killed by her neighbor, a convicted sex 
offender whose presence in her neighborhood was unknown to her parents.
---------------------------------------------------------------------------
    \5\ Child Sexual Molestation: Research Issues, National Institute 
of Justice, Office of Justice Programs, U.S. Department of Justice, 
June 1997.
---------------------------------------------------------------------------
    The Megan's Law section of the Wetterling Act requires all states 
to conduct community notification but does not set out specific forms 
and methods, other than to require the creation of internet sites 
containing state sex offender information. States are given broad 
discretion in creating their own policies. In practice, community 
notification methods are either

        (1)  passive notification, requiring the public to initiate 
        contact with law enforcement, such as publicly-accessible 
        websites; or

        (2)  active notification, by which law enforcement officers 
        initiate contact with the public, such as community meetings, 
        posting flyers, or visits to individual residences within a 
        radius of the offender's address.

    Because the federal law leaves it up to the states to create their 
own programs of community notification, current state programs vary 
widely. In 17 states law enforcement is authorized by statute to 
conduct only passive notification to the public about the presence of 
sex offenders in their communities--it is up to the public to 
continually seek out this information on their own initiative in order 
to protect themselves. Furthermore, many states do not provide 
information about their entire registry of sex offenders, only a 
portion of them, usually those designated as posing a high risk of 
reoffense, which can also vary widely between states. The public has a 
right to know about all registered sex offenders living in our 
communities. The amount of protection a child is given shouldn't depend 
on the state in which that child lives. There is clearly a need for 
more uniformity among state programs of community notification of sex 
offenders.
    The Jacob Wetterling Act and Megan's Law represented a giant step 
forward a decade ago. We must preserve that foundation. But America has 
changed. Today, there are more offenders to register and manage, there 
are new technologies, and there are more and younger victims. We 
understand that resources are scarce and that are many competing 
demands. However, it is hard to imagine a greater or more pressing 
priority.
    NCMEC urges lawmakers, law enforcement and the public to take a 
serious look at the dangers threatening our children today, and to move 
decisively at the federal level and the state level to create a 
seamless, coordinated, uniform system that works. Now is the time to 
act.
    Thank you.

    Mr. Green. Thank you, Mr. Allen.
    And now, Amie, welcome. We look forward to hearing from 
you.

      TESTIMONY OF AMIE ZYLA, STUDENT, WAUKESHA, WISCONSIN

    Ms. Zyla. Thank you. My name is Amie Lee Zyla. I'm here to 
tell you my story, and ask you to change the law to prevent any 
future victims. I relived my nightmare because the law gave my 
abuser, Josh Wade, a free ticket to continue abusing children, 
and as a result so many more kids and their families have been 
hurt.
    Nine years ago, I was sexually assaulted at the age of 
eight. My abuser hurt me in my own home, where he had gained a 
level of trust--and then so brutally violated it. He stole my 
self-esteem, and made me feel so afraid--so afraid that I 
almost did not go to my parents, because I thought he would 
hurt me again. After I was able to fend him off, I then had to 
watch him assault my little friend, and endure a threat to my 
life, until he was put away.
    While it was a very difficult time, I came forward when it 
happened, to stop him from hurting anyone else ever again. I 
also expected to never have to deal with my abuser again.
    Then, one day about 9 years later, Josh Wade walked back 
into our lives. I saw him on TV, and was stunned to see that he 
was not only out in the community again, but that he had done 
it again.
    When I first saw him, I was so disappointed. I was scared, 
and couldn't believe he was out. All those old feelings 
returned, and I was so sad for all the new victims. I couldn't 
believe there were so many new victims. How and why were there 
so many more victims? Why wasn't he caught earlier? And how did 
the system break down?
    The more I thought about it, the more upset I became. I was 
so mad that what happened to me seemed like it didn't matter. 
It just didn't count. I didn't count, and the new victims 
didn't count.
    It was wrong that my parents and I did not know he was out. 
He hurt me, he hurt my friend, and threatened my life. On top 
of that, no one could tell the community what he was capable 
of, because his rights were considered more important than my 
safety. My right to safety came second, in fact, to the fact 
that he hurt me when he was a juvenile--a fact that didn't seem 
to stop him from hurting anyone else; but it did allow so many 
more other children to be assaulted.
    Isn't it so very obvious this has to change? I decided my 
anger, and that of my family, needed to be expressed in a 
positive way. We decided to contact our government officials 
and change the law to protect our communities. No matter how 
old an offender is, Josh Wade proves that sexual predators will 
continue seeking out new victims, and hurt more people.
    In Wisconsin, the community and government agreed with us, 
and enacted Amie's Law. But that is not enough. We cannot sit 
back and allow kids to continue to be hurt. The simple truth is 
that juvenile sex offenders turn into adult predators. Kids all 
over the country need the same kind of protection as in 
Wisconsin.
    I pray that by coming forward again sexual abuse victims 
who can hear the sound of my voice understand that it is not 
their fault; that they must come forward and find healing and 
purpose.
    Stand up to your abusers, and help law enforcement stop 
them from hurting anyone else. Abuse does not have to affect 
your whole life. If I can overcome the hurt and trauma, then so 
can you.
    That began to make my attacker pay for his actions. 
Unfortunately, that was not the end of my journey. I had to 
come back and work to change the law to prevent juvenile 
offenders from getting the chance to harm other victims.
    At this very moment, somewhere in this country a child's 
heart is being stolen. He or she is young, afraid, confused, 
and feeling dirty. That child is being terrorized by the most 
horrible kind of criminal. It happens every day, and it still 
hurts me deeply to hear another kid is experiencing that same 
kind of pain I did at 8 years old.
    I want to challenge you to look deep down inside. Isn't it 
time to put our kids' safety before the rights of the sexual 
offender, adult or juvenile? When is enough going to be enough? 
Must we have even one more Jessica Lunsford, or one more Sarah 
Lunde, or even one more kid like me who must keep reliving the 
nightmare?
    We need a national sex offender registry that includes 
juvenile sex offenders. Mr. Green has introduced a bill that 
will do just that; a bill that will ensure all offenders, 
regardless of their age, will be on the registry, and not able 
to work with children or hurt anyone else. I ask you to support 
Mr. Green's bill and the many other proposals you have heard 
about today. I ask you to help protect kids--kids like me. 
Thank you for your time.
    [The prepared statement of Ms. Zyla follows:]

                  Prepared Statement of Amie Lee Zyla

    Hello Everyone,
    My name is Amie Lee Zyla. I am here to tell you my story and ask 
you to change the law to prevent any future victims. I re-lived my 
nightmare because the law gave my abuser, Joshua Wade, a free ticket to 
continue abusing children and as a result so many more kids and their 
families have been hurt.
    Nine years ago I was sexually assaulted at the age of eight. My 
abuser hurt me in my own home where he had gained a level of trust--and 
then so brutally violated it. He stole my self-esteem and made me so 
afraid. So afraid that I almost didn't go to my parents because I 
thought he would hurt me again. After I was able to fend him off I then 
had to watch him assault my little girlfriend and endured a threat to 
my life until he was put away.
    While it was a very difficult time, I came forward when it happened 
to stop him from hurting anyone else ever again. I also expected to 
never have to deal with my abuser again.
    Then one day, about nine years later, Josh Wade walked back into 
our lives. I saw him on TV and was stunned to see that not only was he 
out in the community again, but that he had done it again. When I first 
saw him I was so disappointed. I was scared and couldn't believe he was 
out. All those old feelings returned and I was so sad for all the new 
victims--I couldn't believe there were so many new victims. How and why 
were there so many more victims? Why wasn't he caught earlier? How did 
the system break down?
    The more I thought about it, the more upset I became. I was so mad 
that what happened to me seemed like it didn't matter. It just didn't 
count. I didn't count and the new kids didn't count.
    It was wrong that my parents and I didn't know he was out. He hurt 
me, he hurt my friend and he threatened my life. On top of that no one 
could tell the community what he was capable of because his rights were 
considered more important than my safety. My right to safety came 
second to the fact that he hurt me when he was juvenile--a fact that 
didn't seem to stop him from hurting anyone else, but it did allow so 
many more children to be assaulted.
    Isn't it so very obvious this has to change? I decided my anger, 
and that of my family, needed to be expressed in a positive way. We 
decided to contact our government officials and change the law to 
protect our communities--no matter how old an offender is Josh Wade 
proves that sexual predators will continue to seek out new victims and 
hurt more people.
    In Wisconsin the community and government agreed with us and Amie's 
Law. But that is not enough, we can not sit back and allow kids to 
continue to be hurt. The simple truth is that juvenile sex offenders 
turn into adult predators. Kids all over the country need the same kind 
of protection as in Wisconsin.
    I pray that by coming forward again sexual abuse victims who can 
hear the sound of my voice understand that it's not their fault. That 
they must come forward and find healing and purpose. Stand up to your 
abusers, help law enforcement stop them from hurting anyone else. Abuse 
does not have to affect your whole life, if I can overcome the hurt and 
trauma then so can you. That began by making my attacker pay for his 
actions. Unfortunately that was not the end of my journey. I had to 
come back and work to change the law to prevent juvenile offenders from 
getting the chance to harm other victims.
    At this very moment some where in this country, a child's heart is 
being stolen. He or she is young, afraid, confused, and feeling dirty. 
That child is being terrorized by the most horrible kind of criminal. 
It happens everyday and it still hurts me deeply to hear another kid is 
experiencing that same kind of pain I did at eight years old. I want to 
challenge you to look deep down inside. Isn't it time to put our kid's 
safety before the rights of secrecy of sexual offenders--adult or 
juvenile? When is enough going to be enough? Must we have even one more 
Jessica Lundsford or one more Sarah Lunde or even one more kid like me 
who must keep re-living the nightmare? We need a national sex offender 
registry that includes juvenile sexual offenders. Mr. Green has 
introduced a bill that will do just that. A bill that will ensure all 
offenders, regardless of their age, will be on the registry and not 
able to work with children or hurt anyone else. I ask you to support 
Mr. Green's bill and the many other proposals you have heard about 
today. I ask you help protect kids--kids like me.
    Thank you for you time.

    Mr. Green. Thank you, Amie. Very well done. Nice job.
    Dr. Berlin.

  TESTIMONY OF FRED BERLIN, M.D., ASSOCIATE PROFESSOR, JOHNS 
                       HOPKINS UNIVERSITY

    Dr. Berlin. Thanks for inviting me. I appreciate that very 
much. Let me make it clear that I'm not here to support or 
oppose any particular legislation today; but I hope to provide 
some information that may be of some help.
    I want to make it clear that I do support fully the 
registration of sex offenders. That means having lists 
available to proper legal authorities, names that can be 
distributed to people that need to know, and so on. But I do 
want to talk about concerns about two things. One is community 
notification; and the second, I want to make a couple of 
comments about the role of punishment.
    First of all, with respect to community notification, I 
want to make it clear that the verdict is not yet in on whether 
or not that is proving to be successful. The State that's 
probably had it in effect for the longest is Washington State. 
I did a follow-up study, looking at what had happened in that 
State. There was no evidence that it reduced criminal 
recidivism.
    Secondly, speaking out of my own personal clinical 
experience and research background, it is a sad fact that there 
are persons out there who want to offend. And if they are on a 
registry and listed in a community as being present, if they're 
listed in community ``A'' as being present, those people are 
simply going to go to community ``B,'' where they're a lot less 
known, and still commit an offense.
    On the other hand, there are a lot of offenders out there 
who are trying to succeed. I can tell you that out of personal 
experience. We, for example, published a large study on over 
600 men in treatment. Over 400 had a history of pedophilic 
behavior. The recidivism rate was less than 8 percent.
    The reason I believe that many of those men succeeded in 
treatment is they were able to get a fresh start. They could 
get jobs. They weren't feeling disenfranchised, angry at the 
community. They succeeded, I believe, in part because they were 
able to do those things. It begs the question whether, if we 
drive these people underground, are we actually making the 
community safer? Again, I think it's something we simply have 
to take a look at.
    In terms of sex offender recidivism, just a couple of 
points that I think are important. The U.S. Department of 
Justice, through the Office of Justice Programs, took a look at 
sex offender recidivism. Surprised me. I worked in this area 
for many years. As a group, sex offenders have a lower rate--
lower rate--of recidivism than people who commit other kinds of 
serious criminal acts.
    Asking about the recidivism rate of sex offenders is like 
asking about the recidivism rate of drunk drivers. In other 
words, there is no one right answer. There's a tremendous 
spectrum.
    At one end of the spectrum are people who really are going 
to continue to get back in trouble; at the other end, those who 
won't; and then there's the entire group in between. If you get 
an over-zealous therapist here who says that most, if not all, 
sex offenders will not recidivate, that's an extreme statement 
that is not in keeping with the facts. Similarly, if you get 
someone who comes in, who says, ``Once an offender, always an 
offender''--and you will hear that--that's also an extreme 
statement. It's simply not in keeping with the facts.
    In looking at community notification, we also have to ask 
whether it could be harmful. Keep in mind, when we identify the 
offender, we identify his address. Much of offending has to do 
with things, unfortunately, that go on within the family. There 
is the risk of inadvertently identifying victims. There is now 
concern that some victims of incest may be deterred from coming 
forward.
    I can give you a brief anecdote of a child that I was aware 
of, where the teacher, meaning well, read out a sex offender 
registry in school. The peers of this child looked over at him 
and said, ``Hey, isn't that your dad? And by the way, were you 
his victim?'' It's not clear how that was helping to make the 
community safer. And these are not anecdotes that are simply 
isolated examples. The verdict is not yet in.
    In terms of the role of punishment, pedophilia is a 
condition, to give an example, in which persons are sexually 
attracted to young children. If the only thing we do is punish 
these individuals, there's nothing about being in prison that 
can either erase those attractions or enhance their capacity to 
successfully resist acting upon them.
    We need both the Attorney General and the Surgeon General 
involved in this, if we're going to adequately protect 
community safety. Let me make it clear, I very firmly support 
the criminal justice stance. But what is often given very 
meager attention in all of these discussions is the public 
health side of this.
    In terms of harsh mandatory punishments, again, people can 
do that if they want to. But much of what goes on is within the 
families. Many victims, in spite of the victimization, are 
struggling to put their family back together. They are hoping 
that the person who's done wrong can have a chance to succeed. 
There are numerous instances of families doing well after these 
kinds of tragedies have occurred.
    Are we going to get to the position where we were when we 
first started the war on drugs, where having an ounce of 
marijuana led to mandatory sentences of an extreme length? Many 
victims don't want their victimizer to go away for a long 
period of time. That's simply a fact.
    To finish up, if I may--and I may be using my time, so very 
quickly--four points that I think need to be made, that are 
often missing in these discussions:
    Number one, what I'll call ``truth in language.'' We used 
to talk about truth in sentencing. The word ``violent,'' in 
terms of its everyday meaning, is clearly not what is being 
used in many of the legislative bills that are out there. 
Attempted touching can mean ``violent.'' The word ``predator'' 
often does not have its everyday meaning. Someone who's exposed 
himself to a child who's 13 can be labeled a predator in many 
of these statutes. Somebody who's been involved statutorily--a 
17-year-old who was involved with a 14-year-old--can be labeled 
a predator. Let's have truth in language, so we know what we're 
really dealing with.
    We don't have much discussion about what can help these 
people succeed. Most of them, like it or not, are in the 
community. We try to help bank robbers; we try to help 
murderers, even. It's in all of our best interests to help 
these people succeed.
    There should be some discussion of public policy based on 
the exception rather than the rule. We've heard a lot about 
Jessica Lunsford. It is horrible. But kidnapping, sexual 
assault, and murder is a fraction of a percent of the big 
problem. Do we want to base public policy on the exception 
rather than the rule? Is that likely to be the most effective 
public policy?
    Finally--and I thank you; I may have gone over. I'm close 
to going over--the last point I want to make is that in almost 
all legislation that we get involved with, and that you folks 
get involved with, there is a system of checks and balances. 
And that often, in my judgment, leads us to a consensus, which 
often has as the result effective legislation.
    As you all know, there's not really much of a balance of 
advocacy when we come to these issues. We can ask two kinds of 
questions. We can ask, ``How can society be made safe?'' All of 
us want an answer to that question. And the point I would make 
here today is, if we're asking how to make society safe, let's 
make sure that what we're proposing has evidence that it's 
really going to do that. That's the first point.
    A second question we can ask is not exactly the same 
question. That is, ``How, in the context of being safe, can we 
also be just and fair?'' Now, when we're in this area, there 
are people who are going to say, ``Why the heck should we be 
just and fair?'' Well, I'll give you the answer to that. What 
makes this country--or one of the things that makes this 
country so great is, not only are we interested in being safe, 
but we are also interested in being just and fair. That's what 
this country is all about.
    We need to do something for people like Amie. There isn't a 
decent human being who doesn't want to do that. But we owe it 
to her to get it right. And I hope some of the conversation 
that I presented to you today will stimulate some thought and 
help in this effort to get it right. We all want to do good 
things for those who are victimized. Thank you.
    [The prepared statement of Dr. Berlin follows:]

                  Prepared Statement of Fred S. Berlin

    My name is Fred Berlin, and I am an Associate Professor of 
Psychiatry at The Johns Hopkins University School of Medicine. For your 
convenience, I am enclosing a brief professional biography as well as a 
copy of my full Academic Vitae. My area of specialization within 
Psychiatry is sexual disorders, a spectrum of conditions which includes 
within it pedophilia. Therefore, I am also enclosing the draft of a 
recent paper, soon to be published, regarding that topic. I have become 
involved in this work, in part, out of the belief that doing so 
contributes to the effort to protect the public by decreasing 
victimization.
    The primary focus of my current concerns will relate to two issues: 
(1) the usefulness of community notification as a means of enhancing 
public safety, and (2) the likelihood that enhanced punishments will 
better protect the public from sexually disordered sexual offenders.
    I have no problem with the notion that sexual offenders should 
register, thereby making information about them available to legitimate 
criminal justice authorities. However, it appears that at this point in 
our history, lists of registered offenders can quickly be accessed 
through the Internet, thereby, in many instances, making such 
registration synonymous with community notification.
    A number of horrible cases involving kidnapping, sexual assault, 
and murder have recently been highly publicized, even though such cases 
represent a fraction of one percent of the big picture when it comes to 
the issue of criminal sexual offenses. Instead, the overwhelming 
majority of sexual offenses are initiated by a family member, a close 
friend, or an acquaintance whose prior background is, in many 
instances, well known to both the victim, as well as to his, or her, 
family.
    It is important to appreciate that when community notification 
occurs, in those cases involving incest, the identity of the victim, or 
victims, may at the same time be revealed, even if he or she is not 
mentioned specifically by name. I am aware of a recent incident in 
which a teacher was reading out in class for educational purposes the 
names of registered sexual offenders. That led one child to ask a 
classmate whether it was his father on that list, and whether in fact 
it had been he who had been a victim. As can be imagined, that child 
felt traumatized by the experience.
    There is currently emerging anecdotal evidence suggesting that 
incest victims, and their families, may become less willing to come 
forward because of the multitude of problems associated with their home 
becoming a listed address on a registry of sexual offenders. The only 
systematic study conducted so far regarding the effectiveness of 
community notification has been done in Washington State. It failed to 
find any reduction in sexual offender recidivism as a consequence of 
such notification.
    Sex offenders who are trying to reside safely in the community, and 
there are many of them, can clearly be hurt by community notification 
statutes. I was the senior author of a published study on over 400 men 
with pedophilia treated in the community, which documented a 5-year 
sexual recidivism rate of less than 8%. For those men who had been 
fully compliant with treatment, the recidivism rate dropped to less 
than 3%. In my judgment, many of these men had succeeded in treatment 
because they were able to get a fresh start; they could obtain gainful 
employment; the property value of their residences remained 
uncompromised; and they were not feeling disenfranchised and publicly 
stigmatized.
    On the other hand, persons who want to commit a sexual offense, who 
have been identified in community ``A'' can simply go to community 
``B,'' where they are likely less well known, and do so there. That 
doesn't solve the problem. It simply moves it to another location. In 
my judgment, it is only those who are trying hard to live safely in the 
community whose efforts, in many instances, may be compromised by such 
legislation. That does little to make the community safer. If there is 
to be community notification, much more information about level of risk 
to the community must be given, along with the information about what 
citizens should and should not be doing with that information. In my 
judgment, all of this needs to be carefully considered before enacting 
any further legislation.
    Recently, a fully voluntary patient in our treatment program, who 
was residing in a structured group home, under close supervision, was 
forced to leave that home, after an individual who had seen his name 
(and picture) on a list of registered sexual offenders threatened both 
he and the home in question. It is difficult to see how such an act did 
anything to make the community safer. Yet, acts of that nature have 
reportedly occurred with some regularity.
    Much of the recent legislation involving sexual offenders has been 
based upon the assumption that they are at an inordinately high risk of 
re-offending. Data gathered by the United States Department of Justice 
has documented that, as a group, sex offenders have a lower rate of 
criminal recidivism than persons who commit other sorts of serious 
criminal acts. Asking about the recidivism rate of sex offenders is 
analogous to asking about the recidivism rate of drunk drivers. There 
is no one answer to that question. The overzealous therapist who argues 
that the recidivism rate of all sex offenders is invariably low is 
presenting an extreme point of view that is not in keeping with the 
facts. On the other hand, the individual who argues ``once an offender, 
always an offender'' is similarly presenting an extreme viewpoint. 
Significant numbers of sexual offenders can, and do, go on to become 
productive and safe members of society.
    With respect to the issue of solving the problem of sexual 
offenders by means of more stern punishments, I would want to point out 
the following. If a man goes to prison sexually attracted to children, 
incarceration alone can neither erase his pedophilic cravings, nor can 
it enhance his capacity to resist succumbing to such desires. 
Furthermore, sooner or later, like it or not, even in the face of 
current proposed legislation, most sex offenders will be in the 
community. As with drug addiction and alcoholism, pedophilia, and a 
number of other sexual disorders, are both a criminal justice matter 
and a public health problem. In that sense, both the Attorney General 
and the Surgeon General must be involved. Psychiatric disorders, such 
as pedophilia, can neither be legislated nor punished away.
    All of us are victim advocates, and public safety must come first. 
However, within the context of doing everything within our power to 
ensure the common good, ours is a nation that still tries to remain 
both fair and just. In most instances, when new legislation is 
proposed, there is a system of checks and balances involving competing 
advocacy groups. That frequently leads to an outcome involving balance 
and consensus. For obvious reasons, such checks and balances are often 
missing when discussing legislation involving sexual offenders.
    No one would propose legislation to deal with the problem of 
alcoholism based primarily upon looking at the recalcitrant alcoholic 
who continues to drive drunk. To do so would be to propose legislation 
based upon the exception rather than the rule. On the other hand, even 
though only a fraction of 1% of sexual offenses involve kidnapping, 
sexual assault and murder, much of the recent legislation in this area 
has been based upon the exception rather than the rule. That begs the 
question as to whether this represents effective and optimal public 
policy. In addition, when it comes to issues of punishment, there needs 
to be proportionality. That is, the punishment should be proportional 
to the crime committed by a specific individual, rather than a mandate 
driven by the much more serious criminal acts of someone else. Many 
families in which incest has occurred still struggle to remain intact, 
and they do not want their loved one, in spite of his offense, to serve 
a sentence of 25 years to life. In my judgment, such legislation may, 
in some instances at least, simply drive the problem underground, 
hurting families, and leading some victims to be reluctant to report 
offenses.
    In my judgment, the most crucial question to ask regarding any 
newly proposed legislation in this area is whether there is any 
evidence that it is likely to make the community safer. In many 
instances, for the reasons noted above, the answer to that questions 
when looked at objectively would appear to be no.
    Finally, although community safety must absolutely come first, it 
is still appropriate to appreciate the inherent humanity of many of 
those who have acted improperly. That is of particular importance in 
these instances because, as noted, the ordinary checks and balances 
affecting most legislation are often absent in these cases.
    Someone once said that the moral fiber of a nation can often be 
gauged by how it treats those citizens whom it could easily cast aside. 
In my judgement, current legislation in this area calls upon each of 
us, as concerned Americans, to face up to that challenge.

    Mr. Green. I thank you for your testimony, and all the 
panelists. I was following you, Dr. Berlin, in most of your 
testimony; although toward the end you said a few things that I 
just wanted to touch upon, that I think were perhaps 
unfortunate.
    You seemed to compare--you made reference to one ounce of 
marijuana. You're not seriously suggesting that pedophilia is 
the equivalent of possession of one ounce of marijuana----
    Dr. Berlin. What I'm suggesting----
    Mr. Green.--in terms of the great scheme of moral behavior?
    Dr. Berlin. I'm sorry, I didn't mean to interrupt you. I 
apologize.
    What I'm suggesting is, just as we know when it comes to 
drug addiction there is a spectrum--there's a big difference 
between the drug dealer and the kid who is experimenting and 
has a little bit of marijuana, and we don't want to have 
comparable punishments. When we first started the war on crime, 
there were a number of jurisdictions in which the user who was 
experimenting had these horrific sentences.
    The point I'm making is that, when it comes to sex 
offenders, there's this same spectrum. We believe in 
proportionality. The punishment should suit the crime, should 
fit the crime.
    I am concerned. And again, I'm not trying to take sides on 
specific bills, but I'm concerned, as a citizen now, that I 
would not necessarily want to be part of supporting a system in 
which individuals are punished not in proportion to their own 
crime, but where the punishments are driven by the crimes of 
others who've done things that are far more serious.
    Mr. Green. But again, in that analogy, you're not 
suggesting that someone who experiments with marijuana in his 
or her room is the equivalent of someone who victimizes a young 
child?
    Dr. Berlin. Absolutely not.
    Mr. Green. Okay. I just wanted to make sure, as you made 
your references here.
    You have in your testimony, I thought, a good point; 
hopefully, one that we're addressing. You said the persons who 
want to commit a sexual offense, who have been identified in 
community ``A,'' can simply go to community ``B,'' where they 
are less likely well-known. Well, isn't one of the answers to 
that to make sure that in community ``B'' they can get that 
same information; so that you don't have the problem of the 
only knowledge of a person's offenses is a restricted area 
where that person first emerged?
    Dr. Berlin. The problem is, I don't see how to make that 
work. And again, if I can be persuaded that this makes the 
community safer, we need to do it. But the person who is 
wanting to commit an offense, and driving off to community 
``B,'' isn't going over there to identify himself. He's getting 
out of an area where people know him.
    None of us can be aware of the identities of offenders in 
every jurisdiction. So in real life, he's going to go someplace 
where the odds are, in spite of the notification----
    Mr. Green. Well, wouldn't one of the answers to that be--in 
fairness to you, you obviously weren't here for the previous 
hearing, when a number of bills were brought forward that would 
talk about this national database that would be accessible 
online; so that in fact we wouldn't have to rely upon solely 
the offender to go and make himself known. I mean, wouldn't 
that provide greater safety for that community?
    Dr. Berlin. Well, again--and I'm not trying to be 
argumentative--if this is an offender who wants to offend, and 
he's known in his own community where nobody is going to 
tolerate him hanging around areas where there are children, he 
gets in his car, he drives to another community. People don't 
know who he is. There's no red flag going up. It's just not 
clear to me how that's going to work.
    Mr. Green. Of course, one of the answers would be--in the 
bills we've taken up--would be to keep that person behind bars. 
If a person is going to be likely to re-offend, as you've just 
set out, we actually can prevent that crime. That person behind 
bars is not likely to offend.
    Dr. Berlin. Well, look, we've got to deal with reality. 
Sooner or later, like it or not, even with new legislation, the 
fact is there are hundreds of thousands of offenders out on the 
streets. If there are some we can keep behind bars, and it's 
legitimate to do so, fine. But that's not what we're talking 
about here.
    Mr. Green. I think it is, actually.
    Dr. Berlin. Community notification about people behind 
bars? As long as they're behind bars, what do we need community 
notification for?
    Mr. Green. We are talking about a series of bills, 
including mandatory minimums, which will keep persons like that 
behind bars for a longer period of time, and give families the 
tools, the knowledge-based tools about who is in their midst.
    And I think in the case of Amie's Law, we're also talking 
about making sure that these individuals don't get into 
positions of authority, where they have contact and can prey 
upon young people. You know, I think that's the difference that 
we're talking about here.
    Obviously, when we're talking about national statistics 
it's almost impossible to say with firm proof what will bring 
crime rates down. There is a lag time, obviously, cause and 
effect. But obviously, I think you would agree, if a person is 
behind bars, they can't recommit.
    And if a family knows that the person who has moved in next 
door, who is applying for that job at a non-profit or at a 
camp, is someone who has committed a serious sex crime against 
kids in the past, doesn't that give us pretty good tools for 
preventing the re-offense? I mean, wouldn't that logically have 
a positive effect in bringing down, at least in that community, 
the possibility that person is going to re-offend?
    Dr. Berlin. Well, certainly, I think it probably does in 
that community. But we're here, you know, in terms of policy 
planning, not simply to move the problem, but to solve the 
problem. That's what I think we really need to come up with.
    Mr. Green. I think that we are talking about both. I think 
we're talking about trying to give tools to parents, to give 
them the tools to protect their kids.
    Dr. Berlin. The other thing, if I may, and I don't want to 
take up----
    Mr. Green. Sure.
    Dr. Berlin. As I said, if I can be persuaded this works, I 
would want to be for it. I'm simply suggesting----
    Mr. Green. We'll work on that.
    Dr. Berlin. Right. But I wanted to make the point that if 
there is to be notification, then I think you need to both 
present people with enough information to get a true sense of 
what the risk may not be, and some guidance about what they 
should do with that information, so they can deal with it in a 
positive fashion.
    Mr. Green. And actually, I will say that one of the Members 
in the previous hearing brought that up and actually made some 
suggestions. So that is something, I think, that we'll 
certainly be looking at.
    Mr. Scott.
    Mr. Scott. Thank you. Dr. Berlin, let me follow up on that. 
If you've got these registries and they work well for the 
neighborhood, and someone moves--drives across town or across 
50, 75 miles, to commit crimes, the parents might know that 
there is a problem, who are the people in the area, but they 
wouldn't know who's coming into the area because they've driven 
from their own neighborhood. Is that the point you were making?
    Dr. Berlin. Yes, that was one of the points I was making.
    Mr. Scott. Ms. Henke, you indicated in your written 
testimony that statistics have shown that recidivism rates for 
these offenders is extremely high? That was in your written 
testimony?
    Ms. Henke. Yes, sir.
    Mr. Scott. Were you referring to the 1994 study that's on 
the Department of Justice website?
    Ms. Henke. That's part of it, as well as other information 
from the National Center and other organizations.
    Mr. Scott. Does the Department of Justice website say, 
``Compared to non-sex offenders released from State prison, sex 
offenders had a lower overall rearrest rate, when the rearrests 
of any type of crime, not just sex crimes, were counted. The 
study found that 43 percent of released sex offenders were 
rearrested. The overall rearrest rate for those released for 
non-sex offenders was higher; 68 percent''?
    Ms. Henke. Yes, it does.
    Mr. Scott. Does it say that, ``Of the released sex 
offenders, 3.5 percent were reconvicted of a sex crime within 
the 3-year follow-up period?''
    Ms. Henke. Yes, it does.
    Mr. Scott. Dr. Berlin, can you describe the Washington 
study that you referred to?
    Dr. Berlin. Well, it's been a while since I've read it, so 
I want to be careful. But it is available; it's been published.
    They found two things. They found that after a crime had 
been committed, there was a more rapid identification of the 
offender. Now, I think registration itself will accomplish 
that, and I certainly support registration. So they did find 
that it helped law enforcement apprehend after the fact.
    What I think we all also want very desperately to do is to 
intercede before the fact. And what the study did not find is 
that, in comparing arrests before that had been--the community 
notification went into effect, and afterwards, that there had 
been a reduction in recidivism of sex offenders.
    Now, there needs to be more research. You make a good 
point. It's early on. I just want people to think about these 
things, because sometimes I worry there's a rush to judgment 
here. And I think this is so important. We want to try to get 
as objective a sense of the facts as we possibly can; at least, 
in my judgment.
    Mr. Scott. Of all child abuse cases, do you have any 
information as to how many of the children victims of child 
abuse were victimized by convicted--those who had previously 
been convicted of a child sexual offense?
    Dr. Berlin. I don't know that. What I do know is that many 
victimizers are former victims. So that one of the other things 
we need to do is target those, particularly boys who've been 
victimized; try to provide them with services earlier on. That 
may be something that will also help to prevent victimization. 
But I don't know the answer to your original question.
    Mr. Scott. Would you think it would be very small, the 
portion of children who have been victimized--of all of them, 
the portion who have been victimized by those caught and 
convicted and on a registry?
    Dr. Berlin. Well, again, I don't want to go beyond my 
expertise. I don't know. What I do know is that, if you've 
committed a serious sex offender more than once, as things 
exist today, you're likely not going to be out there in the 
community. I'm not opposing that.
    What we're talking about is people who aren't in that 
position. You know, nobody needs to figure out what to do about 
the guy that killed Jessica Lunsford. We all know what to do 
about that. The issue is the guy who's involved incestuously 
with his daughter. Are we going to treat him in exactly the 
same way?
    Mr. Scott. Now, you mentioned some things that you can do 
to actually reduce the incidence of child sexual abuse. Do you 
have other initiatives that we ought to be looking at?
    Dr. Berlin. Well, we ought to look at everything. I mean, I 
think parole and probation--the Justice Department set up an 
entity called CSOM, Center for Sex Offender Management. They're 
working on helping parole and probation officers know how to do 
a better job in monitoring these people. Supporting that, I 
think, is extremely important.
    Many of these parole and probation people are stretched 
very thin. I think we want to be able to have them have smaller 
caseloads.
    We work collaboratively in our program with parole and 
probation. For example, Federal probation often actually goes 
out and surveils people. But they need more help to be able to 
do that. You know, frankly, if somebody came to me and said, 
``There's a person in your community, he's dangerous,'' I'd 
kind of throw up my hands and say, you know, ``I'm not sure 
what I should do about it. Is somebody out there watching 
him?''
    I think we can do more to be sure--if we think he's that 
dangerous, and we can't get him off the streets, to make 
certain someone's out there watching him. That's why I say we 
shouldn't look at this in a vacuum. How can we best spend our 
money, use our resources, for the common good?
    Mr. Scott. And Ms. Henke, as I understand it, there are 
about 500,000 people who are supposed to be registered, and 
100,000 we don't know about?
    Ms. Henke. That's correct.
    Mr. Scott. Who is going to pay for the follow-up to make 
sure people are in compliance?
    Ms. Henke. Well, one of the things, that does fall on State 
and local entities, predominantly, as well as the registered 
sex offender. You have communities, counties, States across the 
country, that are putting in place some interesting--I'll call 
them pilot programs, on trying to track down offenders who are 
not living at their registered address.
    For instance, there is a county in Florida who literally 
has put those pictures of those offenders up throughout the 
community and through other places, saying, ``Have you seen 
this individual?'' Because they've gone to those homes; they're 
not living where they're registered. So activities like that 
are going on.
    Also, through our Center for Sex Offender Management, as 
was mentioned, we are providing training and technical 
assistance to State and local authorities on ways to better 
track offenders.
    Mr. Scott. But--just a quick follow-up--but in the various 
pieces of legislation, that will still be the State and local 
problem, not the Department of Justice?
    Ms. Henke. Most of these crimes are--yes, sir, it would be.
    Mr. Green. Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much. Let me again thank 
the Chairman and the Ranking Member for holding what I think is 
an enormously important hearing. And I'll restate my position 
that I made earlier today, that we need a national 
comprehensive statement that parallels, Mr. Allen, with what 
you all have been doing for a number of years.
    Amie, I want to thank you. I have an enormous debt of 
gratitude to extend to you for your courage, for your strength 
of character, and for your can-do attitude. And I'm going to 
tell you, you're going to beat this. And as you do this, you're 
going to help educate and encourage and embrace children and 
young people around the Nation and the world. We applaud you 
for what you have done.
    And I want you to know, as I listen to Dr. Berlin, let me 
say this. We can do both. We can find a balance that recognizes 
where there is an opportunity for rehabilitation, for the 
lowering of recidivism, for the protection of privacy rights. 
If we've been able to go into space, and if we are headed to 
Mars over the next couple of months and years, I can't imagine 
that we as a country cannot provide that balance.
    I would refer you to a section in H.R. 244, which is 
legislation that I wrote, that provides for incentives to 
States as they work toward programs dealing with recidivism. 
Which may mean a myriad of things. It may mean treatment, it 
may mean other kinds of deterrence factors that would 
encourage.
    I would appreciate you just commenting on the aspect of 
States not only looking for some of the criminal penalties, but 
also addressing these questions, whether it's through the 
mental health system or not; but to really go head-on on the 
question of recidivism.
    I happen to think, let me just say very clearly, one 
violent predator, one child sexual predator, is one too many 
for me. I mean, plain and simple. I can't even tolerate the 
existence of one. I do hope people can rehabilitate their 
lives. But I would think that Amie, who sits next to you, would 
agree that one is one too many.
    So I'd appreciate your comment on the idea of a State 
looking to enhance programs dealing with recidivism.
    Dr. Berlin. Well, if I may--and if it's off-topic, you can 
correct me--but I think society in general needs to try to 
figure out how we conceptualize these problems. To give you an 
example, several States, as you know, now have civil commitment 
of sex offenders.
    What happens is, in practice, that a number of these men 
come into prison initially. They say they're sick, they need 
help, they need treatment. The attitude is, ``You're just 
trying to beat the rap. Let's get you off to prison where you 
belong. We'll punish you.'' They spend 20 years in prison with 
virtually no help, no effort to rehabilitate them. Then, 
they're ready to leave. Suddenly, the rules change: ``We 
realize what's going on here is you're sick, you need 
treatment. We're going to go and put you someplace where you 
can get that help.''
    Are these people ill, or are they bad? I think there are 
some people out there that are simply bad, and I have no 
problem saying that, but I think there's others----
    Ms. Jackson Lee. If I may, because my time is short, I 
would assume, then, that you would look favorably at an 
approach where States have to look at programs, however they 
deal--may approach the mental health, the treatment beforehand, 
the treatment after--but that they approach it from the 
perspective, ``What can we do to avoid the recidivism?''
    Which is, I think, Amie's point; which is the predator that 
she experienced came back even as a juvenile, and continued to 
act out in this horrible, negative way.
    Dr. Berlin. Absolutely. We should expect prisons to 
rehabilitate. Right now, we hold them accountable, ``Don't 
escape, don't have a riot,'' and so on. They should 
rehabilitate. People that have come out should have a 
transition. Someone should be following them. If we see they're 
headed for trouble, we should have a way of pulling them back 
in.
    Ms. Jackson Lee. So you would be supportive of States 
giving incentives that devise programs dealing with recidivism?
    Dr. Berlin. Absolutely. Start right up-front when 
somebody's arrested, particularly if they're going to come back 
out, and do it from ``A'' to ``Z.''
    Ms. Jackson Lee. I appreciate it. Mr. Allen, let me first 
of all thank you for your work, and ask you on this question 
of--and I hope Ms. Henke can answer, as well. I've looked at 
and heard your testimony that the Department of Justice, 
General Gonzales, is looking at refining your registry list and 
working with States.
    Do you think, as we've looked at the number of legislative 
initiatives--and I'd appreciate if you'd comment on something 
that is a little separate and apart, which is the idea of a DNA 
database on convicted sex offenders; which is a little 
different from the registry. But do we need legislative 
intervention? We've had it, where you've advocated for it 
before, and it's worked.
    Again, does that tie into the National Government making a 
Federal statement, a national statement, when you intervene 
legislatively? Whether it be on the registry, or whether it be 
in particular on the DNA registration on convicted predators?
    Mr. Allen. Well, Congresswoman, first, as it relates to the 
registry, we think Congress made a strong, loud national 
statement in 1994 with the passage of the Wetterling Act and 
with the Federal Megan's Law.
    We think this is an issue where there is huge opportunity 
for greater Federal leadership. We believe in federalism. We 
know the States have a role, but we think the Congress can play 
a key role in filling some of these gaps and addressing some of 
these problems. And we think that's a process that the 
Committee is looking at and we certainly support.
    Secondly, as it relates to DNA, as you know, we are strong 
advocates of a national DNA database. In fact, efforts--you 
know, there is a process in place that goes beyond sex 
offenders. The big challenge there has been compatibility 
between State databases and the FBI's CODIS database. We think 
that's a problem that needs to be fixed.
    Congress, I think last year, took steps to set up four 
regional centers. The University of North Texas, in fact, is 
the first such center which is basically handling State DNA 
samples and translating them or adapting them into the CODIS 
system. The big challenge is the FBI standards are higher than 
many of the states'. Much of that may be because of resources.
    But DNA is important not only to convict people, but to 
exonerate those who have been accused unfairly. So we support 
it very much.
    Ms. Jackson Lee. Thank you. I'm not sure if we have an 
additional round. Would you indulge me, and let Ms. Henke 
answer the question that I raised, and Amie?
    Mr. Green. By all means.
    Ms. Jackson Lee. I assume, Mr. Allen, you're talking about 
this very important system.
    Ms. Henke, I'm just wondering, are you here explaining, or 
is there any opposition now with the Department of Justice that 
we do as Mr. Allen has asked us to do and Amie has noted, to 
enhance what we have; even though it looks administratively 
that the Department of Justice is consistent with our national 
statement? Can we enhance what we're doing legislatively; and 
in particular, a DNA bank that is directly related to convicted 
sexual predators?
    Ms. Henke. As you know, the Department, and the 
Administration overall, understands and is looking forward to 
continuing to work with Congress on the different bills and 
legislation that has been introduced.
    When it comes to DNA, the President has stated clearly he 
understands the importance of DNA in convicting offenders, as 
well as, as correctly pointed out by Mr. Allen, identifying the 
innocent as well, making certain that those individuals are 
served and protected as well. That is why he has committed over 
a billion dollars right now to reduce the backlog that exists 
in crime labs across the country, through the Office of Justice 
Programs. We're the ones who oversee those resources.
    The Attorney General stated clearly, when he announced the 
public registry, the need for that information. The idea that 
information--to use almost a cliche, information is power. 
Information can serve as a preventative mechanism for 
communities, for parents, for grandparents. That is why he 
challenged us to use the technology that we have to establish 
this national registry.
    We think this national registry will also serve as a tool 
for States to look at what each other is doing, and for them to 
say, ``You know what? We can improve upon what we are doing in 
our own State.'' This provides them that opportunity to look at 
how their registries work, and how they don't work; what 
information is available, what information is not.
    As you know, State law is just that, and it's different in 
every single State. And so this registry we believe not only 
will provide information to the public, but will also help us 
work with the States in potentially addressing some of the 
issues administratively, and potentially get that done quicker.
    The Attorney General is committed to working with the 
Congress on this issue and on a variety of bills because, as he 
has pointed out--and in reference to Mr. Scott's statistics and 
in reference to your statement earlier--yes, it might appear 
that the recidivism rate is not high, when you're talking about 
the statistics, when you look at it in just that way. However, 
when you look at the fact that the recidivism rate was 5.3 
percent overall, that was 514 additional sex offenses that 
occurred in those 3 years--515. And the majority of those 
against children under the age of 13. So the Department of 
Justice is committed to working with you.
    Ms. Jackson Lee. And I hear you saying that you're 
certainly not suggesting that we cannot work together on 
enhancing what we have through legislative initiatives, and 
that the Department of Justice will work with us?
    Ms. Henke. Yes, we will.
    Ms. Jackson Lee. Chairman, if I may finish by raising this 
point with Amie, I think that Amie has exhibited the importance 
of both outreach and education.
    Mr. Green. Right.
    Ms. Jackson Lee. And as well, courage, as I said. It might 
be worthy--and I'm not sure if any of our legislative 
initiatives has the idea of a massive--and I know Missing and 
Exploited Children's Center has done so--public campaign that 
would utilize those who would be willing to be utilized, on 
just speaking directly to children on some of the do's and 
don'ts.
    But Amie, let me say to you that you're here before us 
today, and I simply asked the question whether you would 
welcome the opportunity, in your own time, to teach other 
children or to make sure that they knew about some of the 
things that they should not do. And also, that would give us 
some ability to learn from you as well. Would you work with us?
    Ms. Zyla. Uh-huh.
    Mr. Green. In fact, if I can interject, I think that's what 
she's done back in Wisconsin. And obviously, her presence 
here--Amie, as you can tell, we're all very impressed with your 
courage, with your story. And we're going to make sure that we 
put it to good use. So I want to thank you.
    Ms. Jackson Lee. Thank you, Amie, very much.
    Mr. Green. I want to thank all the witnesses for coming 
today. We appreciate it very much. We've had several hearings 
on the subject of crimes against children, and we will produce 
good legislation and results. I want to thank all of you. Keep 
up the great work.
    In order to ensure a full record and adequate consideration 
of this important issue, the record on this hearing will be 
left open for additional submissions for 7 days. Also, any 
written questions that a Member wants to submit should be 
submitted within that same 7-day period.
    This concludes the oversight hearing on ``Protecting Our 
Nation's Children From Sexual Predators and Violent Criminals: 
What Needs To Be Done?'' Thanks to everyone here for their 
cooperation. The Subcommittee now stands adjourned.
    [Whereupon, at 5:05 p.m., the ubcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

      Prepared Statement of Congressman Robert C. ``Bobby'' Scott

    Thank you, Mr. Chairman, for holding this hearing on what's needed 
to protect children from sexual predators and other violent criminals. 
It is interested that we held the hearing on the legislation that has 
already been drafted to purport to that, but since it has not been 
enacted, it is clear that we are still open to hear what are the best 
approaches, and can adjust the legislation, or craft new legislation, 
to reflect the advice we receive. Unfortunately, our tendency as policy 
makers is to respond to what's in the media with what sounds good 
politically without ever considering what research, evidence and mature 
reflection might suggest.
    Child deaths as a result of sexual abuse or other violence is so 
tragic as to shock the conscious. The visceral reaction we all have is 
to simply strike back with all the punitive weight of the government. 
As policy makers, it is incumbent upon us to not simply do what our 
emotions or politics command, but to do something that will actually 
reduce the incidences of these crimes. We know that many more children 
die as a result of child abuse than is reflected by the tragic cases of 
child sexual abuse and murder that have been in the news, and we know 
that the vast majority of child abusers, including child sex offenders, 
were abused themselves as children. We also know that the vast majority 
of abusers are relatives and other individuals well known to the child 
and family, 90 - 95% according to BACHNET (Be a Child's Hero Network), 
and that most cases of abuse are never reported to authorities or ever 
dealt with in an official manner. Further we know that while some child 
sex offenders are predatory and repeat their crimes many times, the 
vast majority do not recidivate. Extensive studies by DOJ and other 
entities indicate that less than 5% repeat their offenses. Any repeat 
sex offense against a child is horrible, but wehave to consider whether 
the cost benefit of treating 100% of known offenders the same is cost 
effective aainst the other vast needs for preventing abuse of children.
    It would be nice to think that we can legislate away the 
possibility of such horrific crimes, but it is not realistic to believe 
we can and we should certainly seek to avoid enacting legislation that 
expends scarce resources in a manner that is not cost effective or that 
exacerbates the problem. While it is clear that having police and 
supervision authorities aware of all location and identification 
information about child sex offenders, it is not clear that making that 
information indiscriminately available to the public, with no guidance 
or restriction on what they can do with, or in response to, such 
information, is helpful to children. There have been incidences of 
vigilante and other activities which have driven offenders underground. 
And, again, the vast majority of offenders are family members or 
associates known to the victim; so we don't want to make the victims 
reluctant to come forward because their home and family will be exposed 
by a registry.
    Moreover, some of the bills that have been proposed have elaborate 
procedures and requirements of that will cost a lot of money to 
implement. We should assure there is a cost benefit analysis of what 
would be the most productive use of such money rather than simply 
impose the requirements without references to effectiveness or cost/
benefit.
    So, Mr. Chairman I look forward to the testimony of our witnesses 
for insight on the question of what approaches are most promising in 
helping to reduce the scourge of sexual and other abuse of children. 
With the vast majority of child sexual and other abuse cases going 
unreported, the notion that we can address the issue by punishment and 
law enforcement approaches alone sounds hollow. Thank you, Mr. 
Chairman.

                              ----------                              

  Letters submitted by the Honorable Mark Green, a Representative in 
Congress from the State of Wisconsin and Member of the Subcommittee on 
 Crime, Terrorism, and Homeland Security on behalf of Allison Gullick, 
              Marc Klaas, and Eric and Michelle Wilkinson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
